No.
IN THE

Aupheme Court of the United States

OCTOBER TERM, 2020

GENESIS JAVON WHITE,

Petitioner,
Vv.
UNITED STATES OF AMERICA,

Respondent.

PROOF OF SERVICE

I, NOEL G. LAWRENCE do declare that on this date,_13th _ of _ November , 2020, pursuant to Supreme Court
Rules 29.3 and 29.4, I have served the attached MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS
and PETITION FOR WRIT OF CERTIORARI on each party to the above proceeding, or that Party's Counsel, and
on every other person required to be served by depositing an envelope containing the above documents in the United
States Mail properly addressed to each of them and with First-Class postage prepaid.

The names and addresses of those served are as follows:

Hon. Jeffrey B. Wall
Acting Solicitor General of the United States
Department of Justice- Room 5614
950 Pennsylvania Avenue, N. W.
Washington, D. C. 20530-0001

 

AFFIANT

12
